CERTIFICATE OF COMPLIANCE
No.
Patrick S. Crick,
Petitioner
v.
State of Washington,
Respondent

As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains 5628
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on the 5th of December, 2019

Patrick S. Crick
Petitioner, Pro Se
734 Berne LN. SE
Olympia, Wa 98513
(360) 789-6323

